September 29, 2004
Report No. 04-042


FDIC’s Implementation of the
Sarbanes-Oxley Act of 2002




            AUDIT REPORT
                                        TABLE OF CONTENTS




BACKGROUND .......................................................................................................................... 1

RESULTS OF AUDIT ................................................................................................................. 6

GUIDANCE TO FDIC-SUPERVISED FINANCIAL INSTITUTIONS ................................ 7

GUIDANCE TO FDIC EXAMINERS ....................................................................................... 8

CORPORATION COMMENTS AND OIG EVALUATION ................................................ 10

APPENDIX I:   OBJECTIVE, SCOPE, AND METHODOLOGY ................................... 11
APPENDIX II: SUMMARY OF SARBANES-OXLEY ACT PROVISIONS ................. 13
APPENDIX III: GUIDANCE ISSUED BY THE FDIC IMPLEMENTING
              PROVISIONS OF THE SARBANES-OXLEY ACT .............................. 23
APPENDIX IV: SUMMARY OF SARBANES-OXLEY ACT RELATED
              FINANCIAL INSTITUTION LETTERS ................................................ 25
APPENDIX V: CORPORATION COMMENTS ............................................................... 26

TABLE
  Performance Measures Related to Supervision and Examination ................................... 12
the public accounting industry. The Act applies to all companies with publicly traded securities.3
The Act’s stated purpose is to improve quality and transparency in financial reporting and
independent audits and accounting services for public companies, create a Public Company
Accounting Oversight Board (PCAOB), enhance the standard-setting process for auditing
practices, strengthen the independence of firms that audit public companies, increase corporate
responsibility and the usefulness of corporate financial disclosure, protect the objectivity and
independence of securities analysts, and improve the U.S. Securities and Exchange
Commission’s (SEC)4 resources and oversight. In addition, the Sarbanes-Oxley Act imposed
new obligations on directors, officers, accountants, auditors, and insiders. Violations of these
obligations would be the basis for professional liability lawsuits. A summary of Sarbanes-Oxley
Act provisions can be found in Appendix II.

Securities Exchange Act of 1934

For state-chartered financial institutions that are not members of the Federal Reserve System and
that have one or more classes of securities5 subject to the registration provisions of sections of
the Securities Exchange Act of 1934 (the Exchange Act),6 the FDIC is vested with the powers,
functions, and duties of the SEC to administer and enforce various securities regulations,
including:

    •    Securities Exchange Act of 1934, sections:
         o 10A(m), Standards Relating to Audit Committees,
         o 12, Registration Requirements for Securities,
         o 13, Periodical and Other Reports,
         o 14(a), Solicitation of Proxies,
         o 14(c), Information Statements,
         o 14(d), Tender Offers,
         o 14(f), Election of Directors, and
         o 16, Beneficial Ownership and Reporting.

    •    Sarbanes-Oxley Act of 2002, sections:
         o 302, Corporate Responsibility for Financial Reports,
         o 303, Improper Influence on Conduct of Audits,
         o 304, Forfeiture of Certain Bonuses and Profits,
         o 306, Insider Trades During Pension Fund Blackout Periods,
         o 401(b), Disclosures in Periodic Reports,

3
  A publicly traded company generally has assets exceeding $1 million and a class of equity securities held by 500 or
more persons.
4
  The SEC is a government commission created by the Congress to regulate the securities markets and protect investors.
The statutes administered by the SEC are designed to promote full public disclosure and protect the investing public
against fraudulent and manipulative practices in the securities markets. Generally, most issues of securities offered in
interstate commerce, either through the mail or on the Internet, must be registered with the SEC.
5
  A class is a group of securities with similar features such as voting rights and dividend payments.
6
  The Exchange Act identifies and prohibits certain types of conduct in the markets and provides the SEC with
disciplinary powers over regulated entities and persons associated with them. The Act also empowers the SEC to require
periodic reporting of information by companies with publicly traded securities, and requires companies to file proxy
materials with the SEC to ensure compliance with disclosure rules.


                                                           2
       o 404, Management Assessment of Internal Controls,
       o 406, Code of Ethics for Senior Financial Officers, and
       o 407, Disclosure of Audit Committee Financial Expert.

The Exchange Act further prescribes that the FDIC has the power to make rules and regulations
necessary to execute the functions with which it is vested.

FDIC Rules and Regulations Part 335 – Securities of Nonmember Insured Banks

The FDIC’s Rules and Regulations, Part 335, Securities of Nonmember Insured Banks,
incorporates, through reference, the SEC regulations issued under the Exchange Act sections
listed above, except where the FDIC has found that these regulations are not necessary or
appropriate. Therefore, after the SEC issues implementing regulations, they are automatically
incorporated, by reference, into Part 335. The FDIC reviews the SEC’s implementing
regulations to determine whether any are not necessary or appropriate and, if so, issues
regulations excluding those requirements from Part 335. The FDIC also issues guidance to its
registered banks about the changes applicable to them.

DSC’s Accounting and Securities Disclosure Section is principally responsible for administering
Part 335. This Section also maintains public files for periodic reports made under the Securities
Exchange Act of 1934 by FDIC-supervised financial institutions that have registered securities,
including: Registration Statements (Forms 10 and 10-SB), Annual Reports (Forms 10-K and
10-KSB), Quarterly Reports (Forms 10-Q and 10-QSB), Proxy Statements, Current Reports
(Form 8-K), Beneficial Ownership Reports (Forms F-7, F-8 and F-8A), and Acquisition
Statements (Schedules 13D and 13G).

The Section is also responsible for administering the use of offering circulars in connection with
the public distribution of bank securities by insured state nonmember banks. The issuance of
securities by banks is subject to the antifraud provisions of the federal securities laws which
require full and adequate disclosure of material facts. In view of the FDIC's statutory duty to
determine capital adequacy when acting on an application for federal deposit insurance, the
FDIC determines whether public investors have been provided sufficient disclosure of material
facts by an insured state nonmember bank. The FDIC also reviews any offering circular issued
by a bank operating under an administrative order, or used in a mutual-to-stock conversion as
part of the application process.

The Accounting and Securities Disclosure Section also maintains and monitors interagency files
for Peer Reviews of public accounting firms filed under Part 363 of the FDIC’s Rules and
Regulations and performs reviews of disclosures to bank shareholders of regulatory enforcement
actions against FDIC-insured banks. These disclosures of enforcement actions principally
involve FDIC Cease and Desist Orders. In addition, DSC’s Accounting and Securities
Disclosure Section writes guidance related to matters of accounting, securities, and disclosure.




                                                3
FDIC Rules and Regulations Part 363 – Annual Independent Audits and Reporting
Requirements

Section 112 of the Federal Deposit Insurance Corporation Improvement Act of 1991 (FDICIA),
Independent Annual Audits of Insured Depository Institutions, amended the Federal Deposit
Insurance (FDI) Act by adding section 36,7 Early Identification of Needed Improvements in
Financial Management. Section 36 of the FDI Act, codified to 12 United States Code (U.S.C.)
1831m and implemented by FDIC regulation 12 Code of Federal Regulations (C.F.R.), Part 363,
requires every large (total assets of $500 million or more) insured depository institution to
submit an annual report containing the institution’s financial statements and certain management
assessments to the FDIC, the appropriate federal banking agency, and any appropriate state bank
supervisor. Section 36 of the FDI Act also requires that an independent public accountant audit
the insured depository institution’s annual financial statements to determine whether those
statements are presented fairly in accordance with generally accepted accounting principles
(GAAP) and with the accounting objectives, standards, and requirements described in section 37
of the FDI Act. Under section 37, the accounting principles applicable to financial statements
required to be filed with the federal banking agencies must be uniform and consistent with
GAAP. In addition, the accountant must attest to and report on management’s assertions
concerning internal controls over financial reporting. The institution’s annual report must also
contain the accountant’s audit and attestation reports. Therefore, Part 363 established auditing
and reporting requirements for institutions with assets of $500 million or more before the
Sarbanes-Oxley Act was passed.

The auditing and reporting requirements of the FDIC’s Part 363 are similar to certain provisions
of the Sarbanes-Oxley Act, but the Act differs in a few significant respects. Although the SEC’s
final rules for section 404 of the Sarbanes-Oxley Act, Management Assessment of Internal
Controls, are similar to the FDIC’s Part 363 internal control report requirements, the SEC’s final
rules did not require a statement of compliance with designated laws and regulations relating to
safety and soundness.

Instead, the SEC included the following provisions related to internal control that are not in the
FDIC’s regulations:

    •    The report must include a statement identifying the framework used by management to
         evaluate the effectiveness of the company's internal control over financial reporting.8


7
  The statute gives the FDIC Board of Directors the discretion to establish the threshold asset size at which a section 36
annual report is required. That amount is currently set at $500 million. A section 36 audit is not required of financial
institutions with less than $500 million in total assets. However, the federal banking agencies encourage every insured
depository institution, regardless of its size or character, to have an annual audit of its financial statements by an
independent public accountant.
8
  The FDIC's Rules and Regulations do not specifically require that management identify the control framework used to
evaluate the effectiveness of the institution's internal control over financial reporting. However, given the requirements
of sections 101 and 501 of the American Institute of Certified Public Accountants' attestation standards, the FDIC
believes that the framework used must be disclosed or otherwise publicly available to all users of reports that institutions
file with the FDIC pursuant to Part 363 of the FDIC's Rules and Regulations.



                                                             4
    •    Management must disclose any material weakness9 that it has identified in the company's
         internal control over financial reporting (and related stipulation that management is not
         permitted to conclude that the company's internal control over financial reporting is
         effective if there are one or more material weaknesses).

    •    The company must state that the registered public accounting firm that audited the
         financial statements included in the annual report has issued an attestation report on
         management's assessment of the company's internal control over financial reporting.

    •    The company must provide the registered public accounting firm's attestation report on
         management's assessment of internal control over financial reporting in the company's
         annual report filed under the Exchange Act.10

The FDIC’s Board of Directors adopted Rules and Regulations Part 363 to implement section 36
provisions that required rulemaking. The auditor independence requirements of the
Sarbanes-Oxley Act affect all Part 363 institutions because Guideline 14, found in Part 363
Appendix A, Guidelines and Interpretations, provides that an auditor should “… meet the
independence requirements and interpretations of the SEC and its staff.” Thus, requirements of
the Act would affect the auditors engaged by institutions covered by Part 363 (some of whom are
not SEC registrants) and the reports that the institutions file with the FDIC.

FDIC Guidance

The FDIC distributes the majority of its guidance to bankers through Financial Institution Letters
(FILs). FILs are addressed to the Chief Executive Officers of the financial institutions listed on
the FDIC’s FILs distribution list – generally, FDIC-supervised institutions. The FILs generally
announce new regulations and policies, new FDIC publications, and a variety of other matters of
principal interest to bank management. In some cases, FILs explain specific examination
procedures to be performed by FDIC examiners, as is the case with FIL-21-2003, Interagency
Policy Statement on the Internal Audit Function and Its Outsourcing, dated March 17, 2003.

Under section 10(d) of the FDI Act, all FDIC-insured institutions are required to undergo on-site
safety and soundness examinations by a federal regulator11 every 12 or 18 months,12 depending



9
  A material weakness is a condition where the design or operation of one or more of the internal control components
does not reduce to a relatively low level the risk that misstatements caused by errors or fraud in amounts that would be
material in relation to the financial statement being audited may occur and not be detected within a timely period by
employees in the normal course of performing their assigned functions.
10
   The FDIC's Rules and Regulations do require an independent public accountant to examine, attest to, and report
separately on, the assertion of management concerning the institution's internal control structure and procedures for
financial reporting. The Rules and Regulations do not require the accountant to be a registered public accounting firm.
11
   The four federal regulators are the Federal Deposit Insurance Corporation, the Board of Governors of the Federal
Reserve System (FRB), the Office of the Comptroller of the Currency, and the Office of Thrift Supervision.
12
   The FDI Act requires all FDIC-insured banks to be examined on a 12-month cycle. The Act allows the examination
cycle to be extended to 18 months for banks with assets of $250 million or less if other factors are met – primarily that
the bank is CAMELS-rated 1 or 2 (see footnote 13), well managed, and well capitalized.


                                                             5
on asset size and CAMELS13 ratings. Safety and soundness examinations are the primary means
to identify weaknesses that may ultimately lead to institution failure. The FDIC implements its
authority to perform on-site safety and soundness examinations through a series of directives in
DSC’s Memorandum System that are addressed to Regional Directors; manuals, such as DSC’s
Manual of Examination Policies and Case Manager’s Procedures Manual; and DSC
Examination Documentation (ED) Modules that provide examination direction and are
periodically updated.


RESULTS OF AUDIT

The FDIC took adequate steps to issue implementing guidance for applicable provisions of the
Sarbanes-Oxley Act. In addition, the Act did not have a major impact on FDIC-supervised
financial institutions because of pre-existing audit committee and internal control reporting
requirements imposed by FDICIA. Further, of the 5,300 financial institutions supervised by the
FDIC, only 94 are public companies, and 524 other FDIC-supervised institutions are subsidiaries
of public bank holding companies – limiting the number of institutions directly or indirectly
subject to the Sarbanes-Oxley Act provisions.

The FDIC has provided adequate guidance to the FDIC-supervised financial institutions. For
public financial institutions and financial institutions that are subsidiaries of public bank holding
companies, the FDIC guidance required compliance with the Sarbanes-Oxley Act. For
nonpublic financial institutions, the FDIC encouraged compliance with the Sarbanes-Oxley
Act – including those provisions governing auditor independence, corporate responsibility, and
enhanced financial disclosures – and the implementing regulations because of their relevance to
sound corporate governance practices.

The FDIC has also provided adequate guidance to its bank examiners by issuing revised
examination procedures, clarifying its position on Sarbanes-Oxley Act issues, and reemphasizing
expectations about governance practices that the FDIC had previously endorsed. Examiners
were advised to continue to encourage nonpublic banking institutions to periodically review their
policies and procedures relating to corporate governance, including internal controls and auditing
matters.

However, it is not clear how examiners monitor compliance with Sarbanes-Oxley Act provisions
at institutions that are subsidiaries of public bank holding companies or whether the FDIC is
responsible for monitoring compliance by these institutions. In addition, the Sarbanes-Oxley Act
has brought about differences in internal control requirements and reporting for public and
nonpublic institutions. As a result, it is possible that institutions that pose similar risks to the
deposit insurance funds will receive inconsistent treatment by examiners. These issues may be
addressed in a subsequent audit of examiner assessment of institution compliance with the
Sarbanes-Oxley Act.

13
   CAMELS (Capital, Asset quality, Management, Earnings, Liquidity, and Sensitivity to market risk) are the rating
factors used by federal regulators in examining the safety and soundness of FDIC-insured institutions. A rating of
1 through 5 is given, with 1 having the least regulatory concern and 5 having the greatest concern.



                                                           6
GUIDANCE TO FDIC-SUPERVISED FINANCIAL INSTITUTIONS

The FDIC provided adequate implementation guidance to FDIC-supervised financial institutions.
For public financial institutions, the FDIC’s guidance required compliance with the
Sarbanes-Oxley Act, and the FDIC encouraged nonpublic financial institutions to comply with
certain provisions of the Act because of its relevance to sound corporate governance practices.
Appendix III of this report contains guidance issued to financial institutions and FDIC examiners
regarding requirements of amendments and additions to the Exchange Act made by the
Sarbanes-Oxley Act, and new sections of the Sarbanes-Oxley Act for which the FDIC has
enforcement authority.

With respect to the Sarbanes-Oxley Act, the bulk of the implementation guidance to financial
institutions was issued in FIL-17-2003, Corporate Governance, Audits, and Reporting
Requirements, dated March 5, 2003. FIL-17-2003 provided guidance to institutions about
selected provisions of the Sarbanes-Oxley Act, including the actions that the FDIC encouraged
institutions to take to ensure sound corporate governance. The guidance also discussed the
applicability of the auditor independence provisions of the Act and the SEC's implementing
regulations for institutions with $500 million or more in total assets.

There were two attachments to FIL-17-2003; each attachment provided insured institutions with
bank policy guidance and comments on sound corporate governance practices for banks based on
provisions of the Sarbanes-Oxley Act. Attachment I was addressed to insured institutions with
less than $500 million in total assets that are not public companies, and Attachment II addressed
insured institutions with $500 million or more in total assets. Attachment II also indicated that
the FDIC is considering possible amendments to Part 363 of its Rules and Regulations to extend
certain provisions of the Sarbanes-Oxley Act to all insured institutions with $500 million or more
in total assets, whether or not the institutions are public companies or subsidiaries of public
companies. The FDIC advised public company financial institutions to comply with applicable
sections of the Act and encouraged nonpublic institutions to implement recommended policies
and corporate governance practices. A summary of additional guidance to financial institutions
relative to certain titles and sections of the Sarbanes-Oxley Act is in Appendix IV.

In addition, on August 9, 2004, the FDIC issued a limited-distribution14 FIL regarding recent
SEC developments and changes in filing requirements as published by the SEC and PCAOB.
The purpose of this FIL is to provide approximately 100 FDIC-registered banks (state
nonmember banks with securities registered under the Exchange Act of 1934) with an overview
of the new requirements and references to obtain further information. The limited-distribution
FIL addresses the SEC’s latest amendments to rules regarding implementation of section 302
(Corporate Responsibility for Financial Reports), section 404 (Management Assessment of
Internal Controls), section 409 (Real Time Issuer Disclosures), and section 906 (Corporate
Responsibility for Financial Reports) of the Sarbanes-Oxley Act.

14
 These letters are distributed only to FDIC-supervised financial institutions with a class of securities registered with the
FDIC (registrants).



                                                             7
The issuance of a FIL in the case of new legislation, law, rule, or regulation involves a
collaborative effort between FDIC divisions. In the case of the Sarbanes-Oxley Act,
implementing guidance to affected institutions involved the FDIC’s OLA,15 the Legal Division’s
Supervision and Legislation Section,16 and the DSC’s Accounting and Securities Disclosure
Section. OLA kept the Legal Division’s Supervision and Legislation Section and DSC’s
Accounting and Securities Disclosure Section informed by providing early draft versions of the
law. The Supervision and Legislation Section provided legal analysis to the OLA and DSC’s
Accounting and Securities Disclosure Section of the provisions of the new law as it evolved,
including actions required by the FDIC to implement provisions of the new law. DSC’s
Accounting and Securities Disclosure Section authored the implementing FILs and related
examination guidance. The Supervision and Legislation Section also reviewed FILs and
Regional Director (RD) Memoranda associated with implementation of the Sarbanes-Oxley Act
before the guidance was issued.

In our opinion, the collaborative effort between DSC’s Accounting and Securities Disclosure
Section, OLA and the Legal Division resulted in the Corporation providing adequate
implementing guidance to affected FDIC-supervised financial institutions. For public financial
institutions, the FDIC’s guidance was clear about required compliance with the Sarbanes-Oxley
Act, and for nonpublic financial institutions, the FDIC encouraged compliance with certain
provisions of the Act because of the Act’s relevance to sound corporate governance practices.

GUIDANCE TO FDIC EXAMINERS

The FDIC also provided adequate guidance to its bank examiners by revising its examination
procedures, clarifying its position on Sarbanes-Oxley Act issues, and reemphasizing expectations
about governance practices that the FDIC has endorsed. This guidance is listed in Appendix III.
However, as discussed at the end of this section, we are concerned (1) about the ambiguity
surrounding responsibility for monitoring compliance with the Act by subsidiaries of public
companies and (2) that examiners may treat similar public and nonpublic entities differently
because the Act applies only to public entities.

DSC’s Planning and Development Section communicated guidance to FDIC bank examiners
regarding applicable sections of the Act primarily through issuance of RD Memoranda. In
addition to RD Memoranda, DSC communicated developments concerning the implementation
of the Sarbanes-Oxley Act through seminars and other forums. Sarbanes-Oxley Act
developments were also communicated and discussed through presentations at DSC regional
conferences regarding the effects of the Act on the banking industry; contacts between DSC’s

15
   OLA was established to act as a central contact point for congressional members and their staff who have inquiries
relating to the work of the FDIC. OLA monitors new legislation affecting the banking industry as it makes its way
through the legislative process and coordinates with affected FDIC divisions.
16
   The Supervision and Legislation Section develops, drafts, and provides legal opinions to the Corporation on
legislation, regulations, and policy statements that govern the activities, operations, and structures of operating insured
depository institutions. The Section also provides guidance on deposit insurance coverage and assessments of member
institutions, federal securities laws, and consumer laws. Furthermore, the Supervision and Legislation Section is
responsible for the Corporation's compliance with laws and regulations governing rulemaking and information-collection
practices.


                                                            8
Accounting and Securities Disclosure Section, Regional Accountants, and DSC field accounting
subject matter experts; field examiner contacts with their respective DSC accounting subject
matter expert; and participation by DSC regional accountants and field examiner subject matter
experts in the annual accounting seminars sponsored by the FDIC, the FRB, the Office of the
Comptroller of the Currency (OCC), the Office of Thrift Supervision (OTS), and the National
Credit Union Administration (NCUA).

DSC issued two RD Memoranda that communicated examination guidance with respect to the
Sarbanes-Oxley Act. Memorandum 2003-027, Corporate Governance, Audits, and Reporting
Requirements, dated July 9, 2003, provides guidance to examiners on the impact of the Act on
insured depository institutions. RD Memorandum 2004-021, Revised Examination Modules,
dated May 14, 2004, provides updated risk-focused ED Modules. This RD Memorandum
included the module, Management and Internal Controls Evaluation, which incorporates
changes relative to corporate governance, auditing, and reporting guidance as prescribed by the
Sarbanes-Oxley Act.

In RD Memorandum 2003-027, the DSC transmitted general guidance to its examiners regarding
the Sarbanes-Oxley Act, along with a copy of FIL-17-2003. The FDIC advised its examiners
that the Sarbanes-Oxley Act imposed new auditor independence, reporting, and corporate
governance requirements on all publicly traded companies, including insured depository
institutions and bank holding companies. The FDIC also stated that certain provisions of the
Sarbanes-Oxley Act would also affect insured institutions subject to section 36 of the FDI Act.17

The FDIC explained in the RD Memorandum that FIL-17-2003 was issued to provide
comprehensive guidance on the sound corporate governance practices set forth in the
Sarbanes-Oxley Act, including how such practices may benefit all banking organizations,
including nonpublic insured depository institutions. The FDIC also noted that after the issuance
of FIL-17-2003, the FRB, OCC, and OTS issued guidance on this subject that differed in
language – but not in substance – from FIL-17-2003. The FDIC stated that, based on confusion
expressed by bankers and concern over enforcement of perceived different standards, the
Corporation issued RD Memorandum 2003-027 to clarify the FDIC’s position on the matter.

The FDIC also instructed its examiners that FIL-17-2003 did not establish any new mandates for
nonpublic institutions with total assets of less than $500 million. The FDIC expected that these
institutions would continue to follow the sound corporate governance practices that the FDIC has
long endorsed – practices based on existing banking laws, regulations, and guidelines.18
Examiners were advised to continue to encourage nonpublic banking institutions to periodically
review their policies and procedures relating to corporate governance and auditing matters. Such
reviews would ensure that policies and procedures were consistent with applicable laws,
regulations, and supervisory guidance and appropriate to the institution’s size, operations, and


17
   Banks with less than $500 million in total assets are not subject to the annual audit and reporting requirements of
section 36 of the FDI Act.
18
   Guidelines include the Interagency Policy Statement on External Programs of Banks and Savings Associations
(September 1999) and the Interagency Policy Statement on the Internal Audit Function and its Outsourcing (revised
March 2003).


                                                          9
resources. Examiners were also advised to exercise sound judgment and good common sense
when evaluating management’s decisions.

RD Memorandum 2004-021 transmitted to examiners an update of the risk-focused supervision
ED Module, Management and Internal Control Evaluation. The updated ED Module contained
several revisions designed to address corporate governance guidance, audit, and other
independent review issues; business continuity planning; and conflicts of interest. The DSC
made substantive changes to the Core Analysis sections of the Management and Internal
Controls Evaluation ED Module related to the requirements found in Title II, Auditor
Independence, and Title III, Corporate Responsibility, of the Sarbanes-Oxley Act. These
revisions captured the essence of the new requirements found in titles and sections of the
Sarbanes-Oxley Act.

In our opinion, the DSC’s RD Memorandum guidance and other communication efforts on
Sarbanes-Oxley Act developments to its bank examiners was adequate.

Monitoring Compliance of Public Company Subsidiaries and Examiner Treatment of
Public vs. Nonpublic Entities

Although we are not making any recommendations, we are concerned about the treatment of
subsidiaries of public companies and that examiners may treat similar public and nonpublic
entities differently. It is not clear whether or how examiners should monitor compliance with
Sarbanes-Oxley Act provisions at FDIC-supervised financial institutions that are subsidiaries of
public bank holding companies. We understand that the FRB is responsible for inspecting bank
holding companies subject to the Bank Holding Company Act of 1956, as amended, and would
be responsible for monitoring compliance with the Sarbanes-Oxley Act at the holding company
level. However, the FDIC’s guidance did not clearly identify who would be responsible for
monitoring such compliance at the subsidiary level or at bank holding companies that are not
supervised by the FRB. In addition, the Sarbanes-Oxley Act has brought about differences in
internal control requirements and reporting for public and nonpublic institutions. As a result, it
is possible that institutions that pose similar risks to the deposit insurance funds will receive
inconsistent treatment by examiners. These issues may be addressed in a subsequent audit of
examiner assessment of institution compliance with the Sarbanes-Oxley Act.


CORPORATION COMMENTS AND OIG EVALUATION

Although the report did not contain recommendations, the Director, DSC, provided a written
response to the draft report on September 22, 2004. The response is presented, in its entirety, in
Appendix V of this report. DSC concurred with the OIG’s observation that the Sarbanes-Oxley
Act did not have a major impact on FDIC-supervised financial institutions because of pre-
existing audit committee and internal control reporting requirements imposed by FDICIA.




                                                10
                                                                                   APPENDIX I


                      OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of this audit was to determine whether the FDIC has taken adequate steps to issue
implementing guidance to financial institutions and examiners for applicable provisions of the
Sarbanes-Oxley Act of 2002. To accomplish our objective, we reviewed the actions taken by the
FDIC, primarily within the DSC, with assistance from the FDIC’s Legal Division and the OLA,
to implement guidance for financial institutions and examiners regarding applicable provisions
of the Sarbanes-Oxley Act. In addition, we reviewed RD Memoranda, FILs, and operating
manuals and policies. The audit field work was performed at the FDIC’s Washington, D.C.
offices. We performed our audit from June 2004 through August 2004 and in accordance with
generally accepted government auditing standards. Accomplishing the audit objectives is
discussed in the following sections.

Reliance on Computer-Processed Data

Computer-processed data were not significant to the accomplishment of our audit objectives,
findings, or conclusions. Therefore, we did not perform tests to determine the reliability or
validity of data.

Management Controls

We gained an understanding of relevant control activities by reviewing the FDIC’s policies and
procedures applicable to issuance of guidance to FDIC-supervised financial institutions and
FDIC examiners. These policies and procedures are contained in the FDIC’s Manual of
Examination Policies, Case Manager Procedures Manual, ED Modules, RD Memoranda, and
FILs. Our review of the management controls for the implementation of the Sarbanes-Oxley Act
of 2002 did not identify control weaknesses.

Prior Audit Coverage

This issue area has not previously been audited.

Laws and Regulations

We gained an understanding of certain aspects of laws and regulations and evaluated the FDIC’s
implementation of procedures applicable to implementation of the Sarbanes-Oxley Act of 2002.
These included the following:

•   Laws
    o Sarbanes-Oxley Act of 2002
    o Securities Exchange Act of 1934
    o Federal Deposit Insurance Act
    o Bank Holding Company Act of 1956




                                               11
                                                                                      APPENDIX I


•   FDIC Regulations
    Title 12 C.F.R., Banks and Banking
    o Part 335, Securities of Nonmember Insured Banks, which also incorporates, through
        reference, the regulations of the SEC issued under certain sections of the Exchange Act
    o Part 363, Annual Independent Audits and Reporting Requirements

Government Performance and Results Act

We reviewed DSC’s performance measures under the Government Performance and Results Act
(GPRA), Public Law 103-62. We determined that the FDIC did not have a corporate
performance objective specifically related to financial institution compliance with the
Sarbanes-Oxley Act of 2002. However, according to the FDIC’s 2004 Annual Performance
Plan, as shown in the following table, the FDIC established a strategic goal, objective, and
annual performance goal that include assessing each institution’s management practices and
policies and compliance with applicable regulations, as part of the FDIC’s overall assessment of
risk management and safety and soundness. Compliance with provisions of the Sarbanes-Oxley
Act will be reviewed in a subsequent audit.

Performance Measures Related to Supervision and Examination
 Strategic     Strategic              Annual
   Goal        Objective       Performance Goal                  Operational Processes
                            Conduct on-site safety      Risk management examinations assess
                            and soundness               an FDIC-supervised insured
                            examinations to assess an depository institution’s overall
FDIC-        FDIC-
                            FDIC-supervised insured financial condition, management
supervised supervised
                            depository institution’s    practices and policies, and compliance
institutions institutions
                            overall financial           with applicable regulations. The FDIC
are safe     appropriately
                            condition, management       projected that in 2004 it will conduct
and sound. manage risk.
                            practices and policies, and 2,561 examinations required under
                            compliance with             statute, FDIC policy, or agreement
                            applicable regulations.     with state supervisors.
Source: Federal Deposit Insurance Corporation 2004 Annual Performance Plan.

Fraud and Illegal Acts

The limited nature of the audit objective did not require that we assess the possibility for fraud
and illegal acts. However, throughout the audit we were alert to the possibility of fraud and
illegal acts, and no instances came to our attention.




                                                 12
                                                                                              APPENDIX II


                  SUMMARY OF SARBANES-OXLEY ACT PROVISIONS
                                                                                                     Respon-
Section          Title                          Requirements of the Act                              sibility
          Short title and table   The Act may be cited as the “Sarbanes-Oxley Act of
  1                                                                                             --
          of contents             2002.”
  2       Definitions             Defines the Act’s operative terms.                            --
                                  Requires the SEC to issue rules and regulations
          Commission rules        necessary to implement and enforce the Act. A violation
  3                                                                                             SEC
          and enforcement         could subject a person to the same penalties as a
                                  violation under the Securities Exchange Act of 1934.

                     Title I – Public Company Accounting Oversight Board
                                  Establishes the PCAOB as an independent, non-
                                  governmental board to oversee audits of public
                                  companies that are subject to the securities laws to
          Establishment and
 101                              protect the interests of investor and public interests
          administrative                                                                        SEC
                                  through the preparation of informative, accurate, and
          provisions
                                  independent financial reports. Defines the PCAOB’s
                                  duties, membership and appointments, powers, rules, and
                                  reports.
                                  Requires public accounting firms to register with and
 102      Registration with                                                                     External
                                  provide information to the PCAOB in order to perform
          the board                                                                             Auditor
                                  audits of public companies.
          Auditing, quality       The PCAOB must establish standards for auditing and
 103      control, and            related attestations, quality control, ethics, and
                                                                                                PCAOB
          independence            independence to be used by registered public accounting
          standards and rules     firms in the preparation and issuance of audit reports.
          Inspections of          Requires the PCAOB to conduct a continuing program
 104
          registered public       of inspections to assess the degree of compliance of each     PCAOB
          accounting firms        registered public accounting firm with the Act.
                                  Requires the PCAOB to establish rules and procedures to
          Investigations and      investigate and discipline registered public accounting
 105      disciplinary            firms. The PCAOB is given broad investigatory                 PCAOB
          proceedings             authority regarding acts or omissions by a registered
                                  public accounting firm or associated person.
                                  Extends the requirements of the Act to foreign public
          Foreign public                                                                        External
 106                              accounting firms that prepare or assist in preparing an
          accounting firms                                                                      Auditor
                                  audit report for an issuer.
          Commission
                                  The SEC has oversight and enforcement authority over
 107      oversight of the                                                                      SEC
                                  the PCAOB.
          board
                                  The SEC may recognize as “generally accepted” any
                                  accounting principles established by a standard setting
          Accounting
 108                              body that meets criteria set forth in the Act. (For           SEC
          standards
                                  example, the Financial Accounting Standards Board
                                  would satisfy these criteria.)
                                  Provides funding for the PCAOB from annual
 109      Funding                 accounting reporting fees, investigation fees, and issuer     PCAOB
                                  fees.



                                                    13
                                                                                          APPENDIX II


                               Title II – Auditor Independence
                              External auditors cannot provide specific non-audit
                              services to an audit client, including: (1) bookkeeping;
                              (2) financial information system design and
                              implementation; (3) appraisal or valuation services;
      Services outside the
                              (4) actuarial services; (5) internal audit; (6) management    External
201   scope of practice of
                              or human resource services; (7) broker-dealer,                Auditor
      auditors
                              investment adviser, or investment banking services;
                              (8) legal and expert services unrelated to the audit; and
                              (9) any other service that the PCAOB determines
                              impermissible.
                                                                                            Public
                              Audit committees must preapprove and periodic reports         Company
      Preapproval
202                           must disclose all audit services and permissible non-         and its
      requirements
                              audit services provided by the issuer’s external auditor.     Audit
                                                                                            Committee
                              Requires lead and review partners to be rotated after 5
      Audit partner                                                                         External
203                           years and other partners who were part of the audit team
      rotation                                                                              Auditor
                              to be rotated after 7 years.
                                                                                            External
                              External auditors are required to report to audit
                                                                                            Auditor,
                              committees all critical accounting policies and practices,
      Auditor report to                                                                     Public
204                           all alternative accounting and disclosure treatments
      audit committees                                                                      Company,
                              discussed with management, and other material written
                                                                                            and Audit
                              communications with the management of the issuer.
                                                                                            Committee
      Conforming              Conforms definitions of certain terms used in the Act to
205                                                                                         --
      amendments              the definitions in related securities laws.
                              A registered public accounting firm cannot perform audit
                                                                                            Public
                              services for an issuer if a chief executive officer,
                                                                                            Company
                              controller, chief financial officer, chief accounting
206   Conflicts of interest                                                                 and
                              officer, or equivalent officer was employed by the
                                                                                            External
                              auditing firm during the 1-year period preceding the
                                                                                            Auditor
                              initiation of the audit service.
                              The Government Accountability Office (GAO) is
      Study of mandatory
                              required to conduct a study and review of the potential
      rotation of
207                           effects of requiring mandatory rotation of registered         GAO
      registered public
                              public accounting firms and report its findings to the
      accounting firms
                              Congress.
                              SEC is required to issue implementing regulations for
                              auditor independence, making it unlawful for any
                              registered public accounting firm to prepare or issue any
      Commission
208                           audit report if the firm has engaged in prohibited activity   SEC
      authority
                              as defined by subsections (g) through (l) of section 10A
                              of the 1934 Exchange Act, or rule or regulation of the
                              SEC or PCAOB.




                                                14
                                                                                       APPENDIX II

                           It is the sense of the Congress that, in supervising non-
      Considerations by    registered public accounting firms and associated
      appropriate state    persons, appropriate state regulatory authorities should
209                                                                                       --
      regulatory           make an independent determination of the proper
      authorities          standards applicable, taking into consideration the size
                           and nature of the firms’ business.

                           Title III – Corporate Responsibility
                           Requires the SEC to direct the national securities
                           exchanges and associations to prohibit the listing of any
                           security of an issuer that is not in compliance with           SEC
                           certain requirements.

                           The section also prescribes requirements for
      Public company       • independence of audit committee members,
301
      audit committees     • the audit committee's responsibility to select and
                                                                                          Audit
                              oversee the independent auditor,
                                                                                          Committee
                           • complaint procedures regarding accounting practices,
                           • authority of the audit committee to engage advisors,
                              and
                           • funding for the independent auditor and any outside
                              advisors engaged by the audit committee.
                           An issuer’s chief executive officer (CEO) and chief
                           financial officer (CFO) must certify that
                           • they have reviewed annual and quarterly reports;
                              o the reports do not contain any untrue statement of
                                 material fact or have not omitted a material fact in
                                 light of the circumstances; and
                              o the financial statements fairly present in all
                                 material respects the financial condition and
                                 operations of the issuer;
                           • they are responsible for the issuer’s internal controls
                              and have evaluated them and presented in the report
                              their conclusions about the effectiveness of the
                              controls;
      Corporate
                           • they have disclosed to the auditors and audit                Public
302   responsibility for
                              committee                                                   Company
      financial reports
                              o all deficiencies and material weaknesses in internal
                                 controls;
                              o any fraud, whether material or not, involving
                                 management or others who have a significant role
                                 in internal controls; and
                           • they have identified significant changes in internal
                              controls or other factors that could significantly affect
                              internal controls, including any corrective actions with
                              regard to significant deficiencies and material
                              weaknesses.

                           (Section 906 also requires a certification and imposes
                           criminal penalties for violations.)



                                              15
                                                                                      APPENDIX II

                            It is unlawful for any officer or director of an issuer, or
                            any person acting under the direction thereof, to take any     Public
      Improper influence action to fraudulently influence, coerce, manipulate, or          Company
303   on conduct of         mislead any independent public or certified accountant         and
      audits                engaged in the performance of an audit of the financial        External
                            statements for the purpose of rendering them materially        Auditor
                            misleading.
                            If, as a result of misconduct, an issuer is required to
                            restate its financial statements due to a material non-
                            compliance with any financial reporting requirement,
                            then the CEO and CFO are required to reimburse the             Public
      Forfeiture of certain
304                         issuer for any bonus or other incentive-based or equity-       Company
      bonuses and profits
                            based compensation received and any profits realized           and SEC
                            from the sale of the issuer's securities during the 12
                            months following the filing of the financial statements
                            embodying the noncompliance.
                            An officer or director can be barred from serving as a
                            corporate officer if found to be unfit for that office, and
      Officer and director
305                         may be forced to disgorge benefits from any misconduct.        SEC
      bars and penalties
                            The SEC has the authority to grant equitable relief to
                            investors if appropriate.
                            During a blackout period, officers and directors cannot
                            trade company securities acquired in connection with
      Insider trades
                            their service as a director or officer. Any profits realized
      during pension                                                                       Public
306                         would inure to and be recoverable by the issuer. The
      fund blackout                                                                        Company
                            section also sets requirements concerning duties of
      periods
                            retirement plan administrators, notices to employees
                            concerning blackout periods, and penalties for violations.
                            Mandates that the SEC issue rules prescribing minimum
                            standards of professional conduct for attorneys appearing
                            and practicing before it in any way in the representation
      Rules of              of issuers, including, at a minimum, a rule requiring an
                                                                                           Public
      professional          attorney to report evidence of a material violation of
307                                                                                        Company’s
      responsibility for    securities laws or breach of fiduciary duty or similar
                                                                                           Counsel
      attorneys             violation by the issuer or any agent thereof to appropriate
                            officers within the issuer and, thereafter, to the highest
                            authority within the issuer, if the initial report does not
                            result in an appropriate response.
                            The SEC is authorized to set aside recoveries under the
                            Securities Exchange Act for the victims of securities
                            laws violations and may accept and administer donations
      Fair funds for
308                         to a disgorgement fund. The SEC is also to study and           SEC
      investors
                            report to Congress its enforcement actions over the last
                            5 years to identify ways to provide for restitution for
                            injured investors.




                                               16
                                                                                       APPENDIX II


                          Title IV – Enhanced Financial Disclosures
                              Financial reports filed with the SEC are to reflect
                              material correcting adjustments identified by a registered
                              public accounting firm. The reports must also disclose
                              all material off-balance sheet transactions and
                              relationships that may have a material current or future     Public
                              effect on financial condition, changes in financial          Company
                              condition, results of operations, liquidity, capital
                              expenditures, capital resources, or significant
                              components of revenues or expenses.

                              In addition, the SEC is to issue implementing regulations
      Disclosures in          providing that pro forma financial information included
401
      periodic reports        in any periodic report shall be presented in a manner that
                              is not misleading in light of the circumstances under
                                                                                           SEC
                              which it is presented and shall reconcile the financial
                              report with the financial condition of the issuer under
                              GAAP.

                              The SEC is also to study and report to Congress with
                              recommendations on issuer filings and disclosures to
                              determine the extent of off-balance sheet transactions       SEC
                              and the use of special-purpose entities and whether
                              GAAP rules result in financial statements that reflect the
                              economics to investors.
                              Issuers are prohibited from extending credit in the form
                              of a personal loan to any director or executive officer.
                              Home improvement loans are permitted if made in the
      Enhanced conflict       ordinary course of the consumer credit business of the
                                                                                           Public
402   of interest             issuer, are generally available to the public, and made on
                                                                                           Company
      provisions              market terms. This provision does not apply to any loan
                              from an insured depository institution if the loan is
                              subject to the insider lending restrictions under section
                              22(h) of the Federal Reserve Act.
      Disclosures of          Changes shareholding and transaction reporting
      transactions            requirements for directors, officers and principal (i.e.,
      involving               greater than 10-percent ownership) stockholders from         Public
403
      management and          10 days following the end of the month to 2 business         Company
      principal               days following the transaction. Also requires electronic
      stockholders            disclosure.
                              The SEC is to issue rules requiring annual reports to        SEC,
      Management              contain an internal control report containing the items      Public
404   assessment of           listed in this section. The public accounting firm           Company,
      internal controls       preparing the report is to separately attest to              and External
                              management’s assessment.                                     Auditor
                              Sections 401, 402, and 404 and applicable implementing
405   Exemption               rules do not apply to any investment company registered      --
                              under section 8 of the Investment Company Act.



                                                17
                                                                                       APPENDIX II

                              Requires issuers to disclose in annual reports whether
                              they have adopted a code of ethics that applies to the
      Code of ethics for
                              company's principal executive officer, principal financial    Public
406   senior financial
                              officer, principal accounting officer or controller, or       Company
      officers
                              persons performing similar functions and, if not, the
                              reasons why.
      Disclosure of audit     Requires companies to disclose whether the audit
                                                                                            Public
407   committee financial     committee includes at least one financial expert and, if
                                                                                            Company
      expert                  not, the reason.
                              Requires the SEC to review disclosures, reports, and
                              financial statements of issuers on a regular and
                              systematic basis; and, at a minimum, at least once every
                              3 years. In scheduling reviews, the SEC must consider
                              issuers that
      Enhanced review of      • have issued material restatements of financial results,
408   periodic disclosures                                                                  SEC
                              • experience significant stock price volatility,
      by issuers
                              • have the largest market capitalization,
                              • are emerging companies with disparities in price to
                                 earnings ratios, or
                              • have operations that significantly affect any material
                                 sector of the economy.
                              Issuers of securities registered under section 13(a) or
                              15(d) of the Securities Exchange Act of 1934 are
      Real-time issuer                                                                      Public
409                           required to make public disclosure, on a rapid and
      disclosures                                                                           Company
                              current basis, of information concerning the issuer’s
                              financial condition and operations, in plain English.

                             Title V – Analyst Conflicts of Interest
                              The SEC was required to adopt rules designed to address
                              analyst conflicts of interest and improve the objectivity
                              of their research, including a requirement that brokers or
                              dealers or their employees may not retaliate against
                              securities analysts for negative reports that may
                              adversely affect the present or prospective investment
      Treatment of
                              banking relationship of the broker or dealer. SEC
      securities analysts
                              Regulation Analyst Certification (AC) requires that
      by registered
                              brokers, dealers, and certain persons associated with a       SEC and
501   securities
                              broker or dealer include in research reports certifications   Exchanges
      associations and
                              by the research analyst that the views expressed in the
      national securities
      exchanges               report accurately reflect the analyst’s personal views,
                              and disclose whether or not the analyst received
                              compensation or other payments in connection with
                              specific recommendations or views. Broker-dealers are
                              also required to obtain periodic certifications by research
                              analysts in connection with the analysts’ public
                              appearances.




                                                18
                                                                                     APPENDIX II



                    Title VI – Commission Resources and Authority
      Authorization of
601                         Authorizes funding for the SEC.                               SEC
      appropriations
                            The SEC can censure any person or deny any person the
      Appearance and        privilege of appearing or practicing before the SEC if the
602   practice before the   person is not qualified to represent others, engages in       SEC
      commission            improper professional conduct or willfully violated the
                            securities laws.
      Federal court
                            Courts may prohibit anyone from offering penny stock          Federal
603   authority to impose
                            under certain conditions.                                     Courts
      penny stock bars
      Qualifications of
                                                                                          SEC, and
      associated persons    This section enhances the qualifications of associated
604                                                                                       Brokers and
      of brokers and        persons of brokers and dealers.
                                                                                          Dealers
      dealers

                             Title VII – Studies and Reports
                            GAO is to conduct a study to identify
                            • the factors leading to consolidation of public
                              accounting firms since 1989 and the consequent
                              reduction of the number of firms capable of providing
                              audit services to large national and multi-national
                              business organizations that are subject to the securities
                              laws;
                            • the present and future impact of this consolidation on
                              capital formation and securities markets;
      GAO study and         • solutions to problems identified, including ways to
      report regarding        increase competition;
701   consolidation of      • problems faced by business organizations, resulting         GAO
      public accounting       from limited competition among public accounting
      firms                   firms; and
                            • whether federal or state regulations impede that
                              competition.

                            The GAO is to consult with the SEC, the regulatory
                            agencies that perform functions similar to the SEC in the
                            Group of Seven Industrialized Nations member
                            countries, the Department of Justice, and any other
                            public or private sector organization the Comptroller
                            deems appropriate, and to report the results to Congress.




                                              19
                                                                                        APPENDIX II

                            The SEC is to study and report to Congress the role and
                            function of credit rating agencies in the operation of the
                            securities market, examining
                            • their role in the evaluation of issuers;
                            • their importance to investors and the markets;
      Commission study
      and report            • impediments to the accurate appraisal of the financial
702                            resources and risks of issuers;                            SEC
      regarding credit
      rating agencies       • any barriers to entry into the business of credit rating
                               agencies;
                            • measures needed to improve dissemination of
                               information when credit rating agencies announce
                               credit ratings; and
                            • conflicts of interest and ways to mitigate them.
                            The SEC is to study and report to Congress information
                            for the period January 1, 1998, to December 31, 2001, to
      Study and report on
                            determine the number of securities professionals
703   violators and                                                                       SEC
                            (accountants, investment bankers, brokers, dealers, and
      violations
                            attorneys) found to have violated or assisted in the
                            violation of securities laws.
                            The SEC is to review and analyze its enforcement
      Study of              actions over the past 5 years and identify areas of
704   enforcement           reporting that are most susceptible to fraud and              SEC
      actions               inappropriate earnings management and report the
                            results to Congress.
                            The GAO is to study whether investment banks and
                            financial advisers have assisted public companies in
                            manipulating their earnings and obfuscating their true
      Study of
705                         financial condition. The GAO is to specifically address       GAO
      investment banks
                            the role of these entities in the collapse of Enron, Global
                            Crossing, and general marketing transactions and report
                            the results to Congress.

              Title VIII – Corporate and Criminal Fraud Accountability
                            Corporate and Criminal Fraud Accountability Act of
801   Short title                                                                         --
                            2002
                            It is a federal crime punishable by fine and/or
                            imprisonment up to 20 years for anyone to knowingly
                            alter, destroy, mutilate, hide or falsify any document or     Courts and
                            tangible object with intent to impede or influence the        Law
                                                                                          Enforcement
                            investigation or proper administration of any agency or
      Criminal penalties    in any bankruptcy case.
802   for altering
      documents             Accountants who audit an issuer are to maintain all audit
                            or review workpapers for 5 years from the end of the
                            fiscal period in which the audit or review was concluded.     External
                            The SEC later issued a final rule increasing the retention    Auditors
                            period to 7 years. Violations are punishable by fine
                            and/or imprisonment of up to 10 years.




                                               20
                                                                                       APPENDIX II

      Debts
      nondischargeable if     Debts arising under a claim relating to securities law
                                                                                            Courts and
      incurred in             violations or common law fraud in connection with a
803                                                                                         Law
      violation of            securities transaction cannot be discharged in
                                                                                            Enforcement
      securities fraud        bankruptcy.
      laws
                              A private right of action involving fraud, deceit,
      Statute of              manipulation, or contrivance involving the securities         Courts and
804   limitations for         laws may be brought not later than the earlier of: 2 years    Law
      securities fraud        after the discovery of facts constituting the violation or    Enforcement
                              5 years after the violation.
      Review of federal
      sentencing              The United States Sentencing Commission (USSC) is to
      guidelines for          review and amend the Federal Sentencing Guidelines
805   obstruction of          and policy statements to ensure they are sufficient to        USSC
      justice and             deter and punish cases involving document destruction,
      extensive criminal      financial fraud, and organized crime.
      fraud
      Protection for          Provides whistle-blower protection for employees who
      employees of            report securities laws violations by their employers. An
                                                                                            Courts and
      publicly traded         employee proven to have been discriminated against by
806                                                                                         Public
      companies who           the employer is entitled to compensatory damages,
                                                                                            Company
      provide evidence of     including reinstatement, back pay with interest, and
      fraud                   special damages.
      Criminal penalties      Whoever knowingly executes or attempts to execute a
      for defrauding          scheme to defraud a person in connection with a security      Courts and
807   shareholders of         or obtains by false pretenses money or property in            Law
      publicly traded         connection with a securities transaction could be fined       Enforcement
      companies               and/or imprisoned up to 25 years.

                 Title IX – White Collar Crime Penalty Enhancements
901   Short title             White-Collar Crime Penalty Enhancement Act of 2002.           --
      Attempts and            It is a federal crime for any person to attempt or conspire
                                                                                            Courts and
      conspiracies to         to commit any offense under chapter 63 of
902                                                                                         Law
      commit criminal         Title 18 U.S.C. and is punishable by fine and/or
                                                                                            Enforcement
      fraud offenses          imprisonment to the same extent as the actual offense.
      Criminal penalties                                                                    Courts and
                              Maximum imprisonment for mail and wire fraud is
903   for mail and wire                                                                     Law
                              increased from 5 years to 20 years.
      fraud                                                                                 Enforcement
      Criminal penalties
      for violations of the
                                                                                            Courts and
      Employee
904                           This section increases the penalties for violating ERISA.     Public
      Retirement Income
                                                                                            Company
      Security Act
      (ERISA) of 1974
      Amendment to
      sentencing              The USSC is to review and, if appropriate, amend the
905   guidelines relating     Federal Sentencing Guidelines and policy statements to        USSC
      to certain white        implement this Act.
      collar offenses


                                                21
                                                                                          APPENDIX II

                                 Financial statements are to include a written statement
                                 by the CEO and CFO, or equivalent, certifying that the
          Corporate
                                 financial statements fairly present, in all material          Public
 906      responsibility for
                                 respects, the issuer’s operations and financial condition.    Company
          financial reports
                                 Violations are punishable by fines of up to $5 million
                                 and/or imprisonment of up to 20 years.

                                 Title X – Corporate Tax Returns
          Sense of the Senate
          regarding the        It is the sense of the Senate that federal income tax
 1001     signing of corporate returns of a corporation should be signed by the                --
          tax returns by       corporation’s chief executive officer.
          CEOs

                         Title XI – Corporate Fraud and Accountability
 1101     Short Title           Corporate Fraud Accountability Act of 2002                     --
          Tampering with a
                                It a crime for anyone to alter, destroy, mutilate, or hide a
          record or                                                                            Courts and
                                record or object with intent to impair its integrity or
 1102     otherwise                                                                            Law
                                impede any official proceeding. Violations are
          impeding an                                                                          Enforcement
                                punishable by fine and/or imprisonment of up to 20 years.
          official proceeding
          Temporary freeze
          authority for the     The SEC has the authority to temporarily freeze the funds
 1103     Securities and        of an issuer it believes may have violated federal             SEC
          Exchange              securities laws.
          Commission
                                The USSC is to review sentencing guidelines applicable
          Amendment to the      to securities and accounting fraud, consider enhancing
 1104     federal sentencing    those applicable to officers and directors of publicly         USSC
          guidelines            traded companies, and report the findings and
                                recommendations to Congress.
                                The SEC has the authority to prohibit, permanently or
                                temporarily, anyone who has violated section 10(b)
          Authority of the
                                (insider trading restrictions) of the Securities Exchange
          SEC to prohibit
                                Act from acting as an officer or director of any issuer with
 1105     persons from                                                                         SEC
                                securities registered under section 12 of the Act or that is
          serving as officers
                                required to file reports under section 15(d) of the Act, if
          and directors
                                that person’s conduct demonstrates unfitness to serve as
                                an officer or director.
          Increased criminal    Penalties for willful violation are increased from fines of
          penalties under       $1 million and/or imprisonment of up to 10 years to            Courts and
 1106     Securities            $5 million and 20 years, respectively, for natural persons     Law
          Exchange Act of       (individuals), and up to $25 million in fines for other than   Enforcement
          1934                  natural persons (business entities).
                                Anyone who knowingly with intent to retaliate takes an
                                                                                               Courts and
          Retaliation against   action to harm anyone who provides information to law
 1107                                                                                          Law
          informants            enforcement officials regarding a Federal offense may be
                                                                                               Enforcement
                                fined and/or imprisoned up to 10 years.
Source: FDIC Legal Division and OIG analysis.




                                                    22
                                                                                   APPENDIX III


                   GUIDANCE ISSUED BY THE FDIC IMPLEMENTING
                     PROVISIONS OF THE SARBANES-OXLEY ACT


            Section                    Financial Institution Guidance         Examiner Guidance
                      Sections Added to the Securities Exchange Act of 1934
                                                                              • Regional Directors
• 10A(m) – Standards Relating to                                                Memorandum
  Audit Committees                  • FDIC limited-distribution* FIL,           2003-027, July 9,
• 13(i) – Accuracy of Financial       August 13, 2002, Financial Statement      2003, Corporate
  Reports                             Certification and Beneficial              Governance, Audits,
• 13(j) – Off-Balance Sheet           Ownership Filing Requirements of the      and Reporting
  Transactions                        Sarbanes-Oxley Act of 2002                Requirements
• 13(k) – Prohibition on Personal   • FIL-17-2003, March 5, 2003,             • RD Memorandum
  Loans to Executives                 Corporate Governance, Audits, and         2004-021,
• 13(l) – Real Time Issuer            Reporting Requirements                    May 14, 2004,
  Disclosures                                                                   Revised Examination
                                                                                Modules

                   Sections Amended in the Securities Exchange Act of 1934
                                    • Limited-distribution* FIL, August 13,
• 12(i) – Conforming
                                      2002, Financial Statement
  Amendment [defines section
                                      Certification and Beneficial
  numbering change in the
                                      Ownership Filing Requirements of the
  Exchange Act]                                                               • Not Applicable
                                      Sarbanes-Oxley Act of 2002
• 13(b)(2) – Conforming
                                    • FIL-17-2003, March 5, 2003,
  Amendment [adds new
                                      Corporate Governance, Audits, and
  language to the Exchange Act]
                                      Reporting Requirements
                                    • Limited-distribution* FIL, August 13,
                                      2002, Financial Statement
                                      Certification and Beneficial
                                      Ownership Filing Requirements of the
                                      Sarbanes-Oxley Act of 2002
                                    • FIL-60-2003, July 28, 2003, Federal
• 16(a) – [Beneficial Ownership]      Banking Agencies Announce New           • Not Applicable
  Disclosures Required                Interagency Electronic Filing System
                                      for Beneficial Ownership Reports
                                    • FIL-41-2004, April 15, 2004,
                                      Mandatory Electronic Filing of
                                      Beneficial Ownership Reports by
                                      Insiders of FDIC-Supervised
                                      Registered Banks




                                                  23
                                                                                       APPENDIX III



              Section                      Financial Institution Guidance         Examiner Guidance
                           New Sections in the Sarbanes-Oxley Act of 2002
• 302 – Corporate Responsibility
  for Financial Reports                 • Limited-distribution* FIL, August 13,
• 303 – Improper Influence on             2002, Financial Statement
  Conduct of Audits                       Certification and Beneficial            • RD Memorandum
• 304 – Forfeiture of Certain             Ownership Filing Requirements of the      2003-027, July 9,
  Bonuses and Profits                     Sarbanes-Oxley Act of 2002                2003, Corporate
• 306 – Insider Trades During           • FIL-17-2003, March 5, 2003,               Governance, Audits,
  Pension Fund Blackout Periods           Corporate Governance, Audits, and         and Reporting
• 401(b) – Commission Rules on            Reporting Requirements                    Requirements
  Pro Forma Figures                     • FIL-66-2003, August 18, 2003, Rules     • RD Memorandum
• 404 – Management                        of Practice for the Removal,              2004-021,
  Assessment of Internal                  Suspension, and Debarment of              May 14, 2004,
  Controls                                Accountants and Accounting Firms          Revised Examination
• 406 – Code of Ethics for              • Limited-distribution* FIL, August 9,      Modules
  Senior Financial Officers               2004, Recent SEC Developments and
• 407 – Disclosure of Audit               Changes in Filing Requirements
  Committee Financial Expert
Source: OIG analysis.
* Distributed only to FDIC-supervised registrants.




                                                      24
                                                                                            APPENDIX IV


                      SUMMARY OF SARBANES-OXLEY ACT RELATED
                          FINANCIAL INSTITUTION LETTERS
    FIL         DATED             SUBJECT                                  SUMMARY
                             Financial Statement     The FDIC explained its expectations with respect to
                             Certification and       sections 302 and 906 of the Sarbanes-Oxley Act that
Limited                      Beneficial Ownership    require written certifications to accompany periodic
                 08/13/02
Distribution*                Filing Requirements     reports containing financial statements required by
                             of the Sarbanes-Oxley   sections 13(a) or 15(d) of the Securities Exchange Act of
                             Act of 2002             1934.
                                                     The federal banking agencies have revised their 1997
                             Interagency Policy
                                                     internal audit policy statement to update guidance (in light
                             Statement on the
                                                     of the Sarbanes-Oxley Act) on the independence of an
FIL-21-2003      03/17/03    Internal Audit
                                                     accountant who provides both external audit and internal
                             Function and Its
                                                     audit services to an institution. Other parts of the 1997
                             Outsourcing
                                                     policy statement also have been revised.
                             Federal Banking         Directors, officers, and principal shareholders of
                             Agencies Announce       institutions whose equity securities are registered with the
                             New Interagency         FDIC, the FRB, and the OCC were encouraged to use a
FIL-60-2003      07/28/03
                             Electronic Filing       new interagency electronic filing system, as required by
                             System for Beneficial   the Sarbanes-Oxley Act, to submit their beneficial
                             Ownership Reports       ownership reports to the agencies beginning July 30, 2003.
                                                     The banking and thrift regulatory agencies have issued
                             Rules of Practice for   final rules governing their authority to take disciplinary
                             the Removal,            actions against independent public accountants and
                             Suspension, and         accounting firms that perform audit and attestation
FIL-66-2003      08/18/03
                             Debarment of            services required by section 36 of the FDI Act. Section 36
                             Accountants and         final rules for disciplinary actions address violations by
                             Accounting Firms        accountants of certain provisions of the Sarbanes-Oxley
                                                     Act of 2002.
                                                     The FDIC explained the disclosure requirements for off-
                             Recently Required       balance sheet arrangements, which was added by section
                             Financial Reporting     401(a) of the Sarbanes-Oxley Act. The changes effective
Limited
                 02/13/04    Disclosures for         for financial institution registrants with respect to
Distribution*
                             Publicly Reporting      Management’s Discussion and Analysis of Financial
                             Banks                   Condition and Results of Operations (MD&A) were also
                                                     explained.
                                                     The FDIC issued an interim final rule amending Part 335
                             Mandatory Electronic
                                                     of its regulations to require electronic filing of beneficial
                             Filing of Beneficial
                                                     ownership reports by directors, executive officers, and
                             Ownership Reports by
FIL-41-2004      04/15/04                            principal shareholders of banks with equity securities
                             Insiders of FDIC-
                                                     registered with the FDIC under the federal securities laws.
                             Supervised Registered
                                                     This rule, which took effect June 11, 2004, implemented
                             Banks
                                                     certain requirements of the Sarbanes-Oxley Act of 2002.
                                                     The FDIC informed financial institutions about several
                             Recent SEC
                                                     important SEC and PCAOB reporting changes. The FIL
Limited                      Developments and
                 08/09/04                            also addresses the latest amendments to rules regarding
Distribution*                Changes in Filing
                                                     implementation of sections 302, 404, 409, and 906 of the
                             Requirements
                                                     Sarbanes-Oxley Act.
Source: OIG Analysis.
* Distributed only to FDIC-supervised registrants.




                                                     25
                       APPENDIX V



CORPORATION COMMENTS
